No. 19-

In The

Supreme Court of tjje tottetr States?
Oliver Lee White,
Petitioner,
v.
United States of America,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,425 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 14, 2019.

Colin Casey Hogam
Wilson-Epes Printing Co., Inc.

